                                                                                 Report No. 6-263-01-002-P
                                                                                         October 29, 2000
MEMORANDUM
TO:                USAID/Egypt Director, Willard J. Pearson, Jr.

FROM:              Acting RIG/Cairo, Thomas C. Asmus

SUBJECT:           Audit of Interest Paid to U.S. Banks under USAID/Egypt’s Commodity Import
                   Program

This is our final report on the subject audit. We reviewed your written comments on the draft
report and have included them in Appendix II.

This report contains one recommendation for your action. Your written comments indicate that
as a result of the audit the Mission has examined its procedures and has taken further steps to
reduce the average number of days interest paid to U.S. banks under the Mission’s Commodity
Import Program (CIP).1 However, given these improvements, the Mission believes that
insufficient savings potential remains2 to justify implementing an important part of our
recommendation, i.e., to implement an alternative U.S. Treasury payment system on a pilot
basis to determine the workload issues and savings potential from that system. We believe that
the Treasury system has the potential to further reduce or eliminate interest payments to the
banks. Hence, we do not consider that a management decision has been reached on the
recommendation.

Please advise me within 30 days of any additional actions planned or taken by the Mission to
implement the recommendation.

I appreciate the cooperation and courtesies extended to my staff during the audit.


Background
USAID/Egypt (the Mission) and the Government of Egypt's (GOE) Ministry of International
Cooperation (the Ministry) jointly manage the CIP. USAID provides $200 million per year to
Egyptian private sector importers, accessible through participating Egyptian commercial banks,

1
 The Mission states that it has been able to reduce the average number of days to 7.6 as compared to an average of
13.26 noted during the audited period.
2
  We did not verify that the Mission reduced the average number of days to reimburse the banks to 7.6. However, if
the average number of days is permanently reduced to that level, then the Mission should be able to reduce interest
costs from the average $460,000 per year estimated by the audit to a new level of $270,000—a savings of $190,000 per
year compared to the previous situation.
to finance the importation of equipment and materials from the United States. The Egyptian
banks bear primary implementation responsibility for the program and act in accordance with
the rules and procedures set forth in the Ministry’s General Circular No. 1.3

The participating Egyptian bank reviews the importer's application for CIP funds to determine if
the commodity conforms to General Circular No. 1 and applicable USAID regulations, and
determines the credit worthiness of the applicant. The participating bank then forwards the
approved application to the Mission for review and concurrence. Upon Mission concurrence,
the participating Egyptian bank opens a letter of credit through a U.S. bank in favor of the
selected U.S. supplier.

Local currency loans are made to Egyptian importers at the equivalent of the transaction's dollar
value. These loans are made at prevailing local interest rates and provide differing interest-free
grace periods and repayment periods depending on whether the importer is a trader or end user
and whether the import is a capital or non-capital good. Under the program, importers pay off
their local currency loans and the Egyptian participating banks deposit these repayments in
separate special accounts established for the program at the Central Bank of Egypt.
USAID/Egypt and the Ministry then jointly program the funds in the special accounts. Typical
uses of the funds include general budget support to the GOE, sector budget support to
individual GOE Ministries or Agencies, and support for the Mission’s projects and operations.

USAID/Egypt finances the U.S. dollar cost of the imported commodities and associated freight
and charges through Letters of Commitment (L/COM) issued to U.S. banks. The U.S.
supplier, prior to shipment, must submit to the Mission a form4 certifying that the transaction is
eligible under CIP regulations. The Mission must approve this form before the U.S. bank can
make payment to the supplier. This approved document along with copies of shipping and
commodity invoices is then submitted to the U.S. bank for payment. The U.S. bank pays the
U.S. supplier and then sends a voucher to USAID/Egypt to be reimbursed. The Mission
reimburses the U.S. bank for the amount paid to the supplier plus banking charges. After the
U.S. bank is reimbursed for the original transaction, it then bills again for interest given the
number of days it took to receive reimbursement.

Audit Objective
The Office of Regional Inspector General, Cairo audited the CIP as a result of survey work
indicating that it might be possible to reduce or eliminate interest payments to U.S. banks. The
audit was designed to determine if there are practical ways for USAID/Egypt to reduce or
eliminate interest paid to U.S. banks on Letters of Commitment for Commodity Import Program
purchases.

Appendix I includes a discussion of the scope and methodology for this audit.

3
 General Circular No. 1, Rules and Procedures for Utilization of Funds under the Private Sector Commodity Import
Program, June 8, 2000.
4
    USAID Form 11, Application for Approval of Commodity Eligibility.

                                                       2
Audit Findings

Are there practical ways for USAID/Egypt to reduce or eliminate
interest paid to U.S. banks on Letters of Commitment for Commodity
Import Program purchases?
There are practical ways for USAID/Egypt to reduce or eliminate interest paid to U.S. banks
on Letters of Commitment for Commodity Import Program purchases.


USAID/Egypt Needs to Explore
Alternate CIP Payment Method

Federal policy5 requires that agencies periodically analyze how new technology and
modifications to work processes can enhance agency operations and financial management. By
adopting a U.S. Treasury payment system which would permit immediate reimbursement to U.S
banks, USAID/Egypt could reduce or eliminate further interest payments to the banks, saving
up to $460,000 annually. The Mission did not consider the Treasury system because it was not
aware that it existed. Further, the Mission noted that it would need to request a deviation from
USAID policy to permit the banks, since banks are for-profit institutions, to reimburse
themselves before the Mission reviews and certifies the payment. The Mission also voiced
various concerns regarding implementation details and wondered whether the U.S. banks would
be willing and capable to use the new system.

USAID/Washington did not oppose revising the disbursing mechanism currently in place. Also
the banks that responded to our e-mail inquires indicated that they were willing and capable of
using the new system. Regarding implementation details, we consider that to be the
responsibility of the Mission controller.

DISCUSSION

Since taking over payment responsibilities from USAID/Washington at the beginning of
FY1998, USAID/Egypt’s Financial Management office (FM) took steps to reduce interest
costs. For example it implemented a new payment method whereby payments to U. S. banks
were made against faxed vouchers resulting in reduced interest payments. Also in FY1999, it
negotiated interest rates and bank charges with participating banks. FM stated that as a result
the interest rates were reduced from 8.5 to almost 7 percent. However, at the time of our audit,
most of the banks were charging the Federal Funds rate, which is lower.

The CIP incurs interest from the date the U.S. bank pays the U.S. supplier to the date the bank
receives reimbursement from USAID. In order to reduce this period of time, FM requested
that the U.S. banks fax their invoices to the Mission so that payments could be expedited.
FM's voucher examiners base their reviews on this faxed voucher and, once certified, the
5
    Office of Management and Budget (OMB) Circular No. A-127, Financial Management Systems, Section 8a.

                                                       3
vouchers are scheduled for payment through the Kansas City Regional Financial Center.
However, even with this expedited process, it has taken about 13 days on average 6 for the
U.S. banks to receive payment.

Upon further analysis of payment data, it became apparent why there were delays in the
payment process. We analyzed the FY1999 approved letters of credit transactions for one
bank L/COM. For the 47 transactions reviewed, it took about a day and a half on average for
the bank to fax the vouchers to the Mission for payment. Once the voucher was faxed, it took
another 2.5 days on average for FM to date stamp and log the voucher into its payment system.
 We noted only two instances where the Mission was able to log the voucher into its payment
system on the same day it was faxed to them. Finally, it took an additional five days on average
to process the voucher from voucher examination through the Mission's electronic transmittal of
the payment data to the Kansas City Regional Financial Center.

Certain delays in the reimbursement process are unavoidable. In our opinion, even in the best
case scenario it would take a minimum of four days7 from the point the U.S. bank pays a
transaction until it receives reimbursement. There are various reasons for this situation.
USAID/Egypt’s workweek does not correspond exactly with the workweek in the U.S.8
There is a seven-hour time difference between Egypt and most of the U.S. banks used by the
program. Even if the U.S. banks immediately faxed the voucher after payment to the supplier,
the Mission could very well be closed by the time the fax was received. Further, to process the
payment takes additional time. Also, we were told that sometimes the Mission encounters
problems in transmitting the data to the Kansas City Regional Financial Center. Additionally,
there are other delaying factors such as the Mission being closed for Egyptian holidays, and
personnel not being available to process the transactions due to leave, training, higher priority
work, etc.

Regardless of the reasons behind the delays, the interest costs to the CIP are substantial.
USAID/Washington and USAID/Egypt from FY1996 through May 2000 spent over $1.7
million on CIP interest charges. For FY1999, the Mission provided us with a report
documenting interest costs exceeding $376,000.9 We calculated that in FY2000 through the
end of May, expenditures for interest already exceeded $425,000. USAID/Egypt’s strategic
plan projects CIP funding at the current level of $200 million per year through FY2006 and then
reducing gradually to $150 million by FY2009. We estimate that the interest cost to the CIP

6
  The Mission approved 627 CIP letters of credit for FY1999. We examined 289 transactions from those letters of
credit, calculating the number of days from the date of payment to the supplier to receipt of the payment from USAID
reimbursing the transaction. The average number of days to reimburse banks was 13.26 days per transaction.
7
 The best case scenario assumes one day for the Mission to receive the bank’s fax, two days to examine the voucher,
and one day to both certify the voucher and have the Kansas City Regional Financial Center pay the bank. Even though
we believe that the payment delay could be reduced to as low as 4 days, this goal probably would be unrealistic. Of the
289 transactions we reviewed, only 5 vouchers were paid in 4 days or less (1.7 percent).
8
 The Mission's workweek is Sunday through Thursday while the U.S. workweek is Monday through Friday.
9
 The Mission Accounting and Control System (MACS) does not separately break out the interest payments. The
$376,000 figure was based on a MACS intelligent query report sorted for the word “interest”.


                                                          4
over the next five fiscal years will amount to $2.3 million, 10 or $460,000 per year.

In discussions with U.S. Treasury officials, we learned of a payment system that could possibly
eliminate the interest incurred from delays in reimbursing U.S. banks. This system, which has
been available since 1995, is called the Automated Standard Application for Payments (ASAP)
system. It is an all-electronic payment and information system through which financial agents
that are performing financial services for Federal agencies (such as the U.S. banks under the
CIP) can draw from accounts pre-authorized by Federal agencies.

The system would work as follows:

•    U.S. banks receiving CIP funds enroll one time to use ASAP.

•    USAID/Egypt would establish and maintain L/COM accounts in ASAP to control the flow
     of funds to the U.S. banks.

•    The Mission would electronically enter spending authorizations into its ASAP accounts in
     accordance with L/COM needs and schedules.

•    The U.S. banks would initiate payment requests via the Federal Reserve's electronic
     payment (FEDWIRE) system after first paying U.S. suppliers and faxing a copy of their
     invoice for payment to USAID/Egypt.

USAID/Egypt’s on-line authorizations can be made effective as of the current processing day or
up to a year in advance, in which case the authorization is warehoused until its effective date.
Authorization transactions, once certified, immediately update the system.

U.S. bank payment requests are approved or rejected automatically by the ASAP system,
unless placed on "Mission Review", based on the amount of available funds in the account. U.S.
banks would be able to return funds to their ASAP accounts via the same FEDWIRE payment
system they used to take the money out. The Mission and the U.S. banks can view relevant
data on-line, such as up-to-the-minute account balances, account history, and the status of
payment requests affecting their ASAP accounts. Furthermore, the Mission will also receive
daily reports relating to the ASAP accounts under its authority.

Using Treasury's ASAP system may have the added benefit of reducing the workload of both
FM's payment branch and U.S. banks. According to information provided to us by FM, in
FY1999 it processed 623 interest payment transactions for the CIP. Each of these transactions
requires a review to determine the accuracy of the claim. Depending upon how FM would
choose to implement the ASAP system, it is conceivable that these interest transactions would
be eliminated thus reducing FM’s workload. In addition, we contacted nine U.S. CIP banks to
inquire about any concerns using the ASAP system. Of the five banks that responded, four
10
  We calculated this amount by using the funding level of $200 million per year multiplied by the current Federal Funds
rate of 6.5 percent. We assumed 13 days of interest due to payment delays. This total was then multiplied by 5 years.
 Our calculation is based on $200 million average expenditures because actual total CIP disbursements in a given fiscal
year may be more or less than $200 million.

                                                          5
stated that their workload would be reduced using this system. One bank official stated that
"not having to invoice USAID for interest charges would be to our mutual benefit. Aside from
reducing our workload, it would reduce your cost of operation."

Prior to our audit the Mission had taken steps to reduce interest payments, however it had not
considered the possibility of using an electronic payment system to allow the U.S. banks under
the CIP to immediately reimburse themselves upon making a CIP payment. Besides being
unaware of the existence of Treasury's ASAP system, FM noted that ASAP would require the
use of advances, and that USAID policy11 does not favor making advances to for-profit
organizations. FM personnel pointed out that even though the banks could be required to fax
their invoices to the Mission, as they do now, prior to reimbursing themselves through the
ASAP system, technically the banks would be getting an advance until FM examines the faxed
invoice and certifies payment.

We note FM’s point that the banks reimbursing themselves through the Treasury ASAP system
would technically be an advance of funds until FM examines and certifies the voucher. Our
interpretation of the applicable ADS policy, however, is that it is open to making advances to
for-profit organizations when it makes sense.

ADS 636.5.1 states that under certain conditions advances may be extended to for-profit
organizations and gives a few examples of when it would be appropriate. Further, ADS 636.2
states that the prescribed policy is not intended to cover all possible situations involving
advances, and that questions concerning its application to a particular situation not fully
addressed in the policy should be directed to USAID/Washington’s Office of Financial
Management (M/FM). We briefed M/FM on Treasury’s ASAP system and how we
envisioned the system saving interest charges to USAID/Egypt’s CIP. M/FM officials told us
that the idea sounded good in theory and that it would be willing to grant a deviation to
USAID/Egypt to try using the ASAP system for CIP expenditures. M/FM stated it would be
up to the Mission to determine the practicality of the ASAP system.

The Mission raised various other concerns that it envisioned might make use of the ASAP
system an impractical method for reimbursing payments made by the U.S. banks under the CIP:

1. It questioned whether the banks would be agreeable to using the system and whether the
   banks might increase their fees for lost profit built into their interest charges.

     As noted earlier, all the banks that responded to our e-mail inquiries (5 of 9) indicated that
     they were open to using the system. The banks stated that profits built into interest charges
     were minimal.12 We did not specifically ask if the banks would raise banking fees to
     compensate for the small profit factor built into their interest rates. We consider banking
     fees a separate issue from interest charges and that if any bank were to raise its fees to the
     point the fees would be non competitive with other banks, the Mission would have the

11
    USAID ADS Chapter 636, Program Funded Advances.
12
    As an example, we noted that one bank added a spread of 3/20ths, or .15 percent, above the cost of its funds in
charging USAID.

                                                          6
   option of redirecting its business over time to more competitive banks.

2. The Mission questioned whether use of the ASAP system would increase the workload of
   the controller’s staff, envisioning that there would be problems keeping the CIP accounts
   reconciled.

   As regards to this concern, we note that the Mission would only have the CIP disbursing
   under the ASAP system, which system is run through a different payment center (Federal
   Reserve Bank of Richmond) than the one the Mission uses for the rest of its programs. So
   the CIP payment data would be clearly segregated from the rest of the Mission’s program.
   That coupled with the fact that the ASAP system accounts can be structured as the Mission
   pleases (e.g. accounts by individual L/COM or even accounts detailed to the letter of credit
   level) we do not envision that reconciliation will be an unsolvable problem.

3. USAID/Egypt FM staff questioned what the actual accounting entries and transaction-
   processing procedures would be.

   When we attempted to discuss these matters further with the chief accountant, he stated that
   he does not have enough information about the ASAP system and therefore is not in a
   position to answer those questions until sufficient detailed information is available and the
   system is tested. He stated that he was willing to answer any questions pertaining to the
   existing system, but could not give an opinion about a proposed system he does not know
   about. Considering this response, we decided not to spend further effort inquiring into this
   area. In any case, we consider that determining such technical details is the controller’s
   expertise and responsibility.

Use of the ASAP system for reimbursing U.S. bank expenditures under the CIP has the
potential to save about $460,000 per year in program funds that otherwise would be spent on
bank interest charges. The Mission can use these funds to finance additional U.S. imports.
While we think the Mission should implement the ASAP system for CIP expenditures, we agree
with USAID/Washington/M/FM’s statement that determining the practicality of that system is
the responsibility and authority of USAID/Egypt. Consequently, we are making the following
recommendation.

Recommendation No. 1: We recommend that USAID/Egypt explore alternative ways
to reduce or eliminate interest paid to U.S. banks on letters of commitment for
Commodity Import Program (CIP) purchases. Such exploration should include
implementing Treasury’s Automated Standard Application for Payments (ASAP)
system on a pilot basis for one or two U.S. banks participating in the CIP program so
that the Mission can evaluate the workload issues involved in using the ASAP system
as well as the savings potential.


Management Comments and Our Evaluation
The Mission interpreted the report as not containing reportable internal control conditions and

                                              7
as acknowledging the Mission’s compliance with OMB Circular A-127.

It stated that in compliance with the audit report it conducted a thorough review of the current
payment system, noted some areas that needed more attention, and directed its staff to give CIP
payments utmost attention. It further stated that as a result of these actions, during the April to
September 2000 period, it had been able to reduce the average number of days to reimburse
the U.S. banks from “about 13 days” as stated in the audit report to 7.6 days.

The Mission stated that the ASAP system ignores Agency policies regarding pre-payment
document examination and certification, and that USAID policy prohibits giving advances to
for-profit organizations such as the banks. It stated that USAID Regulation No. 1 requires a
number of documents be submitted and therefore the Mission will still have to examine those
documents prior to payment. Further, it stated that even if it opted for the ASAP system “with
the option of transferring funds [being] kept at the Mission” it believed the potential savings in
processing time would be only one day compared to the current procedures (as improved due
to its latest review). It did not believe the minimal savings in interest costs from a one-day
reduction in processing time justifies the cost of implementing the ASAP system even on a pilot
basis as there would be additional costs of training, system trouble shooting at the Mission, the
banks and Treasury.

Further, the Mission stated the ASAP option would result in the Mission relinquishing
accountability of its funds. It indicated that ASAP would result in noncompliance with USAID
Regulation No. 1, banks would have no incentive to send payment documents to the Mission,
records would not be up-to-date, and there would be potential major reconciling problems with
the U.S. Treasury and banks. It further stated that ASAP would increase the workload of the
controller staff and that introducing ASAP at the banks would introduce another challenge for
the banks, increase their likelihood of making errors, and most likely result in increased bank
fees. Lastly, it stated that the estimated interest cost of $460,000 per year being paid to the
banks is an acceptable cost of doing business as the banks provide an invaluable service. (The
full text of the Mission’s comments is included as Appendix II.)

While we note the Mission’s comments that it has been able to reduce the average number of
days it takes to reimburse banks, we note that such improvement partially is achieved by giving
CIP payments “utmost attention”. We applaud the Mission’s accomplishment but, at the same
time, question whether the same degree of attention and results will be achieved over time. In
any case, the Mission is satisfied with reducing the average number of days interest paid to 7.6.
 However, we believe that with the ASAP system the number of days interest can be reduced
further, possibly to zero.

We agree that the banks provide a valuable service for USAID. However, the banks are paid
for their services via bank fees—not interest. The banks charge the Mission interest because
the Mission is using the banks’ funds until such time as the Mission reimburses the banks.
Hence it is a worthy goal to eliminate these avoidable costs.

The Mission offers USAID Regulation No. 1 as a reason for why it would not be able to reduce
the number of days of interest charges. It states that all the required documents per Regulation

                                                8
No. 1 will need to be examined before certifying payment. However, such contention is
contrary to the Mission practice noted during the audit. During the audit the Mission reimbursed
banks after receiving a faxed Standard Form 1034 invoice from the banks. The controller’s
office did not wait to certify payment until it had examined all the documents. Another point
regarding USAID Regulation No. 1 is that USAID may waive, withdraw, or amend at any time
any or all of the Regulation’s provisions (see section 201.86 of the Regulation). Hence, the
Mission’s argument in this respect is misleading.

Certain other statements offered by the Mission also are somewhat less than forthright, for
instance, its statement that USAID policy prohibits giving advances to for-profit organizations.
As we have explained in the audit finding, our interpretation of the policy is that it is open to
making advances to for-profit organizations when it makes sense. In any case, under the ASAP
system the banks would only reimburse themselves for their payments made on behalf of the
Mission. The banks would not be authorized to take funds in advance of making those
payments.

As regards examining documents and certifying payment after the fact, USAID already allows
advance payments under grantee letters of credit without pre-examination of documents or
certification. So there is precedent for making payments and examining the supporting
documents later. It should be noted that USAID Regulation No. 1 basically holds banks
blameless for CIP program payments based on documents that they accepted from the
suppliers in good faith. Hence the banks are entitled to reimbursement for these expenditures in
any case. Delaying payment simply acts to increase interest costs.

The Mission’s concerns that banks will not send the documents specified in the agreement, the
Mission’s records will not be up-to-date, there will be major reconciling problems with
Treasury and the banks, and the banks will raise their fees—all these problems are what we
would term, “to be determined.” Obviously, as with any new endeavor there will be start up
problems and learning curves. This not to say that it is acceptable for the Mission to dismiss the
ASAP system out-of-hand without making a good faith effort to make it work and assess its
savings potential. If the controller was interested in implementing the ASAP system on a pilot
basis, then we believe the controller staff would make it work. Information on the U.S.
Treasury website shows that other departments of the U.S. Government use the system.

Lastly, we do not agree with the Mission’s interpretation that its paying hundreds of thousands
of dollars per year in otherwise avoidable interest costs is not an internal control issue.
Purposely incurring avoidable costs amounts to a waste of resources. Also, the audit report
cites OMB Circular A-127 in the vein that the Mission should analyze how the ASAP system
can enhance agency operations and financial management. The Mission has not done this yet.

In conclusion, the Mission’s comments indicate that it has no plans to implement the ASAP
system on a pilot basis to evaluate the workload issues involved as well as the savings potential.
 We do not agree with this plan of action. Hence, Recommendation No. 1 remains without a
management decision.

We would be happy to consult with the Mission during pilot implementation of the ASAP

                                                9
system to suggest changes to achieve the best results.




                                               10
                                                                               APPENDIX I
                                                                                 Page 1 of 2




                                SCOPE AND
                               METHODOLOGY


Scope
This report is based on our audit of the payment process for USAID/Egypt's Private Sector
Commodity Import Program. We reviewed approved FY1999 letter of credit transactions paid
under Letters of Commitment issued to U.S. banks. During FY1999, the Mission approved
627 CIP letter of credit transactions amounting to about $233 million. There were 244 Egyptian
importers and 279 U.S. suppliers that participated in the program during this time. This audit
assessed the Mission's reimbursement process to U.S. banks and looked at ways to reduce or
eliminate CIP interest costs. The audit was conducted from March 13, 2000 through August
10, 2000 at USAID, U.S. Treasury and contractor offices located in Washington, D.C. and
USAID/Egypt. All work was done in accordance with generally accepted government auditing
standards.

Methodology
To accomplish the audit objective, we first conducted a survey to learn about the operations of
the CIP and to assess program internal controls. Then we reviewed Office of Management and
Budget Circular No. A-127, Financial Management Systems, USAID's Automated Directives
System (ADS) Chapter 636, Program Funded Advances, and Treasury Manual Volume 1 -
Part 6 - Chapter 2000, Cash Advances Under Federal Grant And Other Programs.

We interviewed U.S. Treasury financial management officials to gain an understanding of
alternative payment methods available to U.S. government agencies. In order to gain an
understanding of the CIP payment process, we interviewed USAID/Egypt's CIP program
personnel, voucher examiners, the Mission's certifying officer and other USAID/Egypt controller
personnel. Additionally, we contacted officials at U.S. banks participating in the program.

In determining the number of days for U.S. banks to receive their CIP reimbursements, we first
determined the interest rate charged by the U.S. bank. Using the total interest paid data from
the Mission's CIP office, we calculated the number of days of interest paid to U.S. banks by
taking the amount of interest paid and dividing it by the applicable bank's interest rate. This
method did not always result in an exact number of days because many of the banks' interest
rates are tied to the Federal Funds rate, a rate that changes from time to time. Therefore, the
U.S. banks often used more than one rate to calculate interest costs. To be conservative, we
rounded the number of days down to the nearest whole number. The calculated results,
                                                                                  APPENDIX I
                                                                                    Page 2 of 2
therefore, are understated. Finally, we verified these analytical calculations by selecting random
transactions and tracing the actual number of days of paid interest to the payment vouchers.
APPENDIX II
  Page 1 of 5
APPENDIX II
  Page 2 of 5
APPENDIX II
  Page 3 of 5
APPENDIX II
  Page 4 of 5
APPENDIX II
  Page 5 of 5
